<html>
<title> - AGENCY APPROACHES TO REORGANIZATION EXAMINING OMB'S MEMORANDUM ON THE FEDERAL WORKFORCE</title>
<body><pre>[Senate Hearing 115-165]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-165
 
                  AGENCY APPROACHES TO REORGANIZATION
          EXAMINING OMB'S MEMORANDUM ON THE FEDERAL WORKFORCE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2017

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
                        
                        
                        
                        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                       
                        
                        
                        
                        
                        
                        
                        
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-394 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                           
                        
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
               Margaret E. Daum, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
JOHN MCCAIN, Arizona                 HEIDI HEITKAMP, North Dakota
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California
                     John Cuaderes, Staff Director
                 Doug Murray, Professional Staff Member
                  Eric Bursch, Minority Staff Director
                    Ashley Poling, Minority Counsel
     Katie Delacenserie, Subcommittee Clerk and Committee Archivist
     
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     3
    Senator Hassan...............................................    11
    Senator Peters...............................................    12
    Senator Harris...............................................    18
Prepared statement:
    Senator Lankford.............................................    31
    Senator Heitkamp.............................................    33

                               WITNESSES
                        Thursday, June 15, 2017

Hon. Ellen Herbst, Chief Financial Officer and Assistant 
  Secretary for Administration, U.S. Department of Commerce......     5
Lee J. Lofthus, Assistant Attorney General for Administration, 
  Justice Management Division, U.S. Department of Justice........     6
Donald K. Bice, Associate Director, Office of Budget and Program 
  Analysis, U.S. Department of Agriculture.......................     8
Michael Stough, Director, Program Analysis and Evaluation 
  Division, Office of the Chief Financial Officer, U.S. 
  Department of Homeland Security................................     9

                     Alphabetical List of Witnesses

Bice, Donald K.:
    Testimony....................................................     8
    Prepared statement...........................................    45
Herbst, Hon. Ellen:
    Testimony....................................................     5
    Prepared statement...........................................    36
Lofthus, Lee J.:
    Testimony....................................................     6
    Prepared statement...........................................    41
Stough, Michael:
    Testimony....................................................     9
    Prepared statement...........................................    49

                                APPENDIX

National Treasury Employees Union Statement......................    54
National Treasury Employees Union Letter.........................    60
Responses to post-hearing questions for the Record from:
    Ms. Herbst...................................................    61
    Mr. Lofthus..................................................    73
    Mr. Bice.....................................................    83
    Mr. Stough...................................................    91


                  AGENCY APPROACHES TO REORGANIZATION:



          EXAMINING OMB'S MEMORANDUM ON THE FEDERAL WORKFORCE

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:34 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. James 
Lankford, Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Heitkamp, Hassan, and Harris.
    Also present: Senator Peters.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Good morning, everyone. Welcome to 
today's hearing titled ``Agency Approaches to Reorganization: 
Examining OMB's Memorandum on the Federal Workforce.''
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    Today this Subcommittee focuses for the third time this 
year on how to ensure the Federal workforce effectively and 
efficiently serves the American people. I have the privilege of 
serving tens of thousands of Federal employees in Oklahoma, and 
I know they work very hard--honorably to be able to serve their 
country.
    However, a complicated Federal bureaucracy has hamstrung 
agencies as they seek to achieve their core missions in service 
to all Americans. Federal agencies have responded to ever-
evolving missions and changing circumstances by creating new 
component agencies and offices in an attempt to better their 
constituencies.
    But this has led to a troubling reality. As we meet today, 
no one knows exactly how many agencies actually make up the 
Federal Government. There is no master list of all the programs 
and all agencies. We are doing a lot, and sometimes we do not 
even know what each other is doing. In 2012, the Administrative 
Conference of the United States tried to determine how many 
Federal agencies exist and concluded ``there is no 
authoritative list of government agencies.''
    In addition, according to the Office of Personnel 
Management (OPM), the total number of non-seasonal full-time 
permanent Federal employees grew from approximately 1.76 
million in 2000 to 2.1 million in 2016. This represents a 16.2-
percent increase, with no understanding or measurement of 
whether this has made government more effective or responsive 
to the problems we face.
    With such a sprawling bureaucracy and growing workforce, 
Congress and the Executive Branch must examine together whether 
taxpayer dollars could be spent more effectively and 
efficiently. Until recently, the Federal Government has not 
pursued a comprehensive approach to determine how best Federal 
agencies should be structured to tackle the challenges facing 
our Nation today.
    It is past time we critically examine how government should 
be organized to best serve the American people. Recognizing the 
need for a new direction, on March 13, 2017, President Trump 
issued Executive Order (EO) 13781 on a Comprehensive Plan for 
Reorganizing the Executive Branch. Following this Executive 
Order, the Office of Management and Budget (OMB) published a 
memorandum on April 12, 2017, for agencies titled 
``Comprehensive Plan for Reforming the Federal Government and 
Reducing the Federal Civilian Workforce.''
    Today we have the opportunity to discuss agency plans to 
meet the reorganization requirements and the timeline outlined 
in OMB's memorandum. Specifically, OMB directed agencies to 
finalize three items by June 30, 2017: plans to maximize 
employee performance; high-level drafts of Agency Reform Plans 
to reorganize programs and organizational charts to eliminate 
duplication and inefficiencies; and, third, progress reports on 
``near-term workforce reduction actions.''
    Today we will discuss the processes and methods individual 
agencies are pursuing to restructure and improve their agencies 
and operations. In conversations with OMB, I have learned that 
this first phase in the Federal reorganization is an 
opportunity for agencies to comprehensively redesign and 
improve their structures and operations. This means that 
agencies themselves have been empowered to improve employee 
performance, realign their workforces and operations with their 
missions, and streamline costly, duplicative programs.
    Most importantly, OMB is providing the American people--the 
customers of the Federal agencies--the opportunity to comment 
on the Federal Government's reorganization efforts through a 
public comment website. Ultimately, it is every public 
servant's most important job to hear the American public and 
serve their needs.
    In an effort to give agencies better tools to accomplish 
that core job, I recently partnered with this Committee's 
Ranking Member, Senator McCaskill, to introduce the Federal 
Agency Customer Service Experience Act of 2017. This bipartisan 
legislation will remove a barrier that prevents agencies from 
getting public feedback on their satisfaction with the Federal 
Government's customer service. I hope to quickly send this bill 
to the President's desk for signature into law.
    With much more work to be done to improve the efficiency 
and effectiveness of the Federal Government, I look forward to 
hearing from our witnesses today regarding their agencies' 
plans to meet the OMB memorandum's requirements. We look 
forward to hearing testimony today from the Departments of 
Commerce, Justice (DOJ), Agriculture (USDA), and Homeland 
Security (DHS).
    With that, I recognize Ranking Member Heitkamp for her 
opening remarks.

            OPENING STATEMENT OF SENATOR HEITKAMP\1\

    Senator Heitkamp. Thank you, Chairman Lankford, and thank 
you so much for calling this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Heitkamp appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    As the Ranking Member of the Homeland Security and 
Governmental Affairs Subcommittee that oversees the Federal 
workforce, I really cannot think of a more appropriate topic 
for today's hearing.
    When the Administration implemented their hiring freeze 
across the Federal Government in January of this year, I had 
grave concerns about the local impacts that unfilled vacancies 
would have on communities and citizens in my State of North 
Dakota.
    My concerns only deepened after hearing rhetoric from the 
Administration about reducing the workforce through attrition. 
Across-the-board cuts and a shrinking of the overall Federal 
workforce are not the answer to making the Federal Government 
more efficient or effective.
    When I hear of proposed cuts nearly as high as 21 percent 
at the U.S. Department of Agriculture, I worry about my farmers 
and ranchers and how they are going to get the critical support 
and critical information they need from our Farm Service Agency 
(FSA) field offices.
    Bill Hejl, who grows sugar beets, spring wheat, corn, and 
soybeans near Casselton, North Dakota, is one of those farmers 
that I worry about when I hear about these drastic cuts.
    Bill drives 30 miles or more to get to an FSA office right 
now--a distance that he cannot afford to see increase in the 
future because of potential staffing cuts.
    Bill is someone who plans to hand down his farm to his son 
one day, and it is important for us to think about the impacts 
that these kinds of cuts will have on the next generation of 
farmers and all of those in our rural communities.
    While the hiring freeze has technically been lifted, I want 
you to know that I am paying very close attention to how 
agencies are implementing the guidance that was given to them 
by the Office of Management and Budget on April 12, and I stand 
ready and willing to question any cuts that come at the expense 
of talent, morale, and the mission of our Federal workforce.
    It is essential that agencies are not putting the cart 
before the horse when it comes to reorganization. They must 
carefully think through the long-term impacts any potential 
reductions and what those reductions will mean for the citizens 
of States like North Dakota.
    With nearly a third of the Federal workforce eligible to 
retire in 2019, it is critical that the Federal Government 
connect with the millennial generation in a way that speaks to 
their needs and their desire to pursue mission-oriented careers 
and demonstrates that a career in the Federal Government has a 
lot to offer a young millennial person.
    We will not be able to achieve that if we undermine the 
very mission that drives the younger generation of workers who 
care so much about a career in public service. I think if we 
unwisely cut important agency functions, it will make it 
tougher for us to recruit and maintain quality Federal 
employees.
    I am going to be doing all that I can to basically drive 
efficiency, drive effectiveness of the Federal workforce, but 
not look for a meat cleaver solution to this problem. Are there 
Federal employees who may not be fulfilling a mission that we 
no longer need? Sure. We ought to know that. But across-the-
board cuts and simple solutions like percentage reductions, 
they do not get us where we need to be. Plus I think with a 
third of the workforce willing to retire and maybe seeing an 
opportunity to retire when the mission is not as clear, I think 
that we are asking for not a short-term problem but what will 
result in a long-term problem in terms of quality of the 
Federal workforce.
    So I look forward to hearing from the witnesses. I look 
forward to hearing some of the examples of how we can be more 
efficient and effective with our employees, but also how we 
need to maintain a workforce that has high morale and, as a 
result, has the ability to recruit the best and brightest 
Americans to work for the people of our country.
    Thank you, Mr. Chairman.
    Senator Lankford. At this time I will proceed with the 
testimony from our witnesses.
    Ellen Herbst is the Chief Financial Officer (CFO) and 
Assistant Secretary for Administration at the U.S. Department 
of Commerce. Prior to her Senate confirmation in 2013, she 
served as a senior adviser to the Deputy Secretary of Commerce. 
She spent 25 years in the private sector in both large and 
small businesses before her time in government service. Thanks 
for being here.
    Lee Lofthus is the Assistant Attorney General (AG) for 
Administration in the Justice Management Division of the U.S. 
Department of Justice. In 2006, Mr. Lofthus was appointed to 
his current role and also received a Meritorious Presidential 
Rank Award. He has served in the Department of Justice since 
1982 in various capacities. Thank you, sir, for being here.
    Don Bice is the Associate Director of the Office of Budget 
and Program Analysis, U.S. Department of Agriculture. He also 
serves as the Department's Performance Improvement Officer. 
From 2007 to 2011, Mr. Bice served as the Deputy Director for 
Budget, Legislative, and Regulatory Systems in the same office.
    Michael Stough is the Director of Program Analysis and 
Evaluation Division, Office of the Chief Financial Officer, at 
the U.S. Department of Homeland Security. He also serves as the 
Department's Deputy Performance Improvement Officer. Prior to 
his career at DHS, Mr. Stough served in the U.S. Air Force 
(USAF) for 31 years. Thanks for your service there as well.
    I would like to thank each of our witnesses for appearing 
today. It is the custom of this Subcommittee that we swear in 
all witnesses that appear before us, so if you would please 
stand and raise your right hand. Do you swear that the 
testimony you will give before this Committee will be the 
truth, the whole truth, and nothing but the truth, so help you, 
God?
    Ms. Herbst. I do.
    Mr. Lofthus. I do.
    Mr. Bice. I do.
    Mr. Stough. I do.
    Senator Lankford. Thank you. You may be seated.
    Let the record reflect all the witnesses have answered in 
the affirmative.
    We will be using a timing system today. You will have 5 
minutes for your opening statements. Obviously, we have all 
gone through your written statements. They will be a part of 
the permanent record as well. Anything you would like to add to 
your written statements and your oral statements, you can do 
that. And then we will have multiple rounds of questions after 
that to just pepper you with difficult questions to be able to 
walk through.
    Ms. Herbst, you are the lady on the panel, but you are also 
first on that one as well, and so we are going to honor that. 
We will be glad to be able to receive your testimony.

  TESTIMONY OF THE HONORABLE ELLEN HERBST,\1\ CHIEF FINANCIAL 
   OFFICER AND ASSISTANT SECRETARY FOR ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Ms. Herbst. Thank you. Chairman Lankford, Ranking Member 
Heitkamp, and distinguished Members of the Committee, it is 
truly an honor and a privilege to be here before you today to 
discuss our Department's process for drafting our Reform Plan.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Herbst appears in the Appendix on 
page 36.
---------------------------------------------------------------------------
    The Secretary of Commerce is in strong support of this 
initiative, and I am pleased to appear before you on his behalf 
to tell you about the process the Department is using to drive 
more effective and efficient mission delivery and to be 
excellent stewards of the taxpayer dollars entrusted to us.
    We are making good progress, and we are confident we will 
meet the June 30th deadline for the initial draft submission 
per the OMB guidance. This initial recommendation from our 
Department is the result of a process that starts with initial 
idea formation, and then analysis and synthesis to identify 
likely best candidates for discussion.
    Throughout the summer, we will have iterative discussions 
with various stakeholders, including OMB, other Executive 
Branch agencies, employees, and users of our mission services 
and products. And based on these inputs, the Department will 
prepare a final draft to submit to OMB in September.
    This approach starts first with close coordination with OMB 
and OPM, who are taking the lead on coordinating amongst the 
various agencies--and, I might add, being very supportive. We 
are also taking advantage of the existing structures and 
processes within our Department to gather input.
    The Secretary tasked me to lead the Reform Plan effort in 
my role as CFO and Assistant Secretary for Administration, but 
also in my role as Chairman of something we call the Department 
Management Council (DMC). This Council consists of Senior 
Executive representatives from each of our bureaus as well as 
major departmental offices, such a General Counsel (GC), Chief 
Information Officer (CIO), and CFO. And in most cases, those 
representatives are the responsible ``Chief Operating Officer 
(COO)'' for their respective organizations. We have directed 
the DMC to consider input from managers, employees, reports 
from the Inspector General (IG), reports from the Government 
Accountability Office (GAO), and from users of services and 
products in crafting their draft recommendations to us. Then, 
additionally, a team at the Department level is providing input 
to the overall plan with our emphasis on cross-cutting ideas at 
the Department and governmentwide level. And, last, of course, 
we are receiving lots of ideas from the public through the web 
portal established by OMB.
    Each operating unit was asked to prepare an initial draft 
recommendation in the areas of burden reporting reduction, 
streamlining and improving business processes, any potential 
for merging or eliminating functions or programs, improvements 
in efficiency and effectiveness, and alternative delivery 
models for our existing mission services and products. In 
addition, the Secretary is taking a fresh look across the 
Department at our missions and organization to see if new 
structures could further improve delivery of essential services 
in the most efficient manner possible.
    Commerce also has functional councils that represent areas 
like human resource (HR), acquisitions, financial management, 
and information technology, and each of those councils was 
tasked with identifying burden reduction opportunities to the 
Department as well as coordinating with their respective OMB 
functional offices.
    The HR Council is also tasked with leading the effort on 
employee performance management and workforce planning, as 
called for in the guidance. And to carry out this 
responsibility, the Council has created a separate working 
group which has inventoried our existing tools, processes, 
training that we have in place today that are responsive to the 
guidance as well as identifying the gaps and additional tools, 
processes, and training that we need to have the Executive 
Order carried out.
    Finally, we recognize that this undertaking is requiring 
considerable effort in the formation of the recommendations, 
but will require an even greater effort in implementation of 
any of the accepted recommendations. We are committed to 
implementing proposals that will meet the goal of improving our 
delivery of mission services and products at the most 
effective, efficient levels possible.
    I want to thank you again for the opportunity to appear 
before you today and for your continued support of our 
Department. I am pleased to answer any questions you may have. 
Thank you.
    Senator Lankford. Thank you. Mr. Lofthus.

TESTIMONY OF LEE J. LOFTHUS,\1\ ASSISTANT ATTORNEY GENERAL FOR 
ADMINISTRATION, JUSTICE MANAGEMENT DIVISION, U.S. DEPARTMENT OF 
                            JUSTICE

    Mr. Lofthus. Good morning, Chairman Lankford, Ranking 
Member Heitkamp, and distinguished Senators. Thank you for the 
opportunity to share the efforts of the Department of Justice 
to implement the President Executive Order on reorganizing the 
Executive Branch.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lofthus appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    On April 4, Attorney General Sessions sent a memo entitled 
``Department of Justice Reorganization Plans'' to the heads of 
all DOJ components and United States Attorneys describing the 
process for developing the Department's plan to be submitted to 
OMB in September. Additional details on how to approach the 
reorganization task came on April 12 in OMB Memorandum M-17-22 
entitled ``Comprehensive Plan for Reforming the Federal 
Government and Reducing the Civilian Workforce.'' Justice is 
well underway with our work toward responding to the 
administration's reorganization plans.
    The process laid out by the Attorney General will obtain 
input from four internal sources and one external source. 
First, internally, the Attorney General directed each component 
to review its activities and submit reorganization proposals to 
us by June 16. Second, he asked key members of his office and 
the offices of the Deputy Attorney General (DAG) and the 
Associate Attorney General to develop ideas for reorganization. 
Third, he asked my organization, the Justice Management 
Division, to develop ideas. And, importantly, as a fourth 
internal source we have asked our Department of Justice 
employees for their input. I am pleased to report that we have 
received over 450 employee ideas so far. Finally, we are 
receiving ideas from the public via the web portal established 
by OMB.
    The Attorney General's goal was that, wherever possible, 
DOJ components should align the resources into our key 
priorities: strengthening our national security protections and 
counterterrorism efforts; combating illegal immigration; 
deterring violent crime; fighting human trafficking; and 
reducing opioid and drug abuse. Focusing on those key 
priorities is paramount to ensuring DOJ's effectiveness in 
serving the American people.
    So far in our process, we have met with the executive 
officers--those are the senior management officers--of our 
components to outline the idea collection process, provide a 
standardized template for submitting ideas, and answer their 
questions. Our offices are well underway in their work to 
develop their ideas. My organization is preparing our own 
component plan as well as developing DOJ-wide and 
governmentwide ideas. We have also been collecting DOJ 
workforce data that will assist our leadership group in 
developing and evaluating ideas, and we have been reviewing 
public suggestions provided by OMB. And we are reviewing GAO 
and OIG reports for their recommendations.
    All of this will come together after June 16 when we 
inventory and begin to assess all the ideas we have received. 
We will have preliminary discussions with OMB, and then we will 
meet with the Associate Attorney General, the Deputy, and the 
Attorney General to get their input and direction.
    I fully expect this to be an iterative process. Some ideas 
will be low-hanging fruit and within the authority of our 
individual offices to implement. Other ideas will require the 
approval and direction of the Attorney General. Yet others will 
require OMB and Congressional action. The entire DOJ plan will 
be included with our fiscal year (FY) 2019 budget submission to 
OMB in September.
    Thank you for the opportunity this morning to talk about 
our efforts, and I look forward to your questions.
    Senator Lankford. Thank you. Mr. Bice.

 TESTIMONY OF DONALD K. BICE,\1\ ASSOCIATE DIRECTOR, OFFICE OF 
  BUDGET AND PROGRAM ANALYSIS, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Bice. Good morning, Mr. Chairman, Ranking Member 
Heitkamp, and distinguished Members of this Subcommittee. I 
also appreciate the opportunity to appear before you today to 
discuss the actions that USDA has taken already and will be 
taking to implement the President's direction on improving the 
efficiency, effectiveness, and accountability of the 
Department.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bice appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    Arguably, no other Federal agency has more direct interface 
with Americans than does USDA. That is why it is so important 
that we constantly think about who we serve and how we are 
serving them. Luckily, USDA is accustomed to change through the 
farm bill process where we reauthorize the bulk of our programs 
every 5 years. And through that process, we get the wisdom of 
Congress and our stakeholders, and we learn how we are 
performing and whether or not we can perform what we are 
performing better.
    In terms of how we are going to move moving forward, 
Secretary Perdue has said he will be guided by four principles:
    First, he wants to maximize the ability of the men and 
women of America's agriculture and agribusiness sector to 
create jobs, to produce and sell the foods and fiber that feed 
and clothe the world, and to reap the earned reward of their 
labor.
    Second, he will prioritize customer service every day for 
American taxpayers and consumers.
    Third, USDA will continue to serve in the critical role of 
ensuring the food we put on the table to feed our families 
meets strict safety standards.
    And, lastly, we must preserve our land, and we must pursue 
clean air and water. Stewardship is not an optional item for 
farmers, producers, and ranchers.
    As a downpayment on meeting these priorities and on meeting 
the President's direction for reform, Secretary Perdue acted 
quickly, once he was confirmed, to propose a reorganization of 
the Department on May 11. The Secretary directed the creation 
of a new mission area for international trade under a new Under 
Secretary for Trade and Foreign Agricultural Affairs. He also 
reconstituted our domestic-facing agencies under a newly named 
Under Secretary for Farm Production and Conservation. He also 
positioned the rural development mission area so that it 
reports through an Assistant to the Secretary directly to him. 
These steps recognize the importance of international trade to 
the ag sector, arranges USDA mission areas in a more logical 
fashion, and ensures that rural America always has an 
opportunity and a seat at his table.
    Moving forward, the Department has taken steps to create a 
Modernizing USDA Commission made up of program mission areas of 
sub-Cabinet-level members within the Department and our staff 
office leads. Our Modernizing USDA Commission will help drive 
within agencies the need to focus on the interaction each USDA 
agency customer has with the Department and to improve that 
customer experience.
    As part of our 2019 budget process, we will be asking 
agencies to analyze how each of their programs aligns to the 
Secretary's new strategic goals; rank and prioritize their 
programs; analyze their organizational structures, including 
their field structure to determine whether it needs to be 
updated; and we are going to analyze and identify appropriate 
staffing levels.
    In addition, as you may know, the President recently 
announced the creation of the Interagency Task Force on Ag and 
Rural Prosperity that is having its first meeting actually this 
morning at this point at the Department. It is a multi-agency, 
a multi-departmental organization that will look at barriers to 
economic prosperity and the welfare of communities in rural 
America, including how innovation, technology, and 
infrastructure play a critical role in fully bringing our rural 
communities into the 21st Century. They are going to find ways 
to improve regulatory flexibility and provide relief for 
farmers and small businesses in rural America. We will examine 
how the Federal Government does its business and how that 
impacts food and fiber production and rural communities.
    Thank you again for the opportunity to appear before you 
today, and I look forward to answering your questions.
    Senator Lankford. Thank you. Mr. Stough.

TESTIMONY OF MICHAEL STOUGH,\1\ DIRECTOR, PROGRAM ANALYSIS AND 
  EVALUATION DIVISION, OFFICE OF THE CHIEF FINANCIAL OFFICER, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Stough. Good morning, Chairman Lankford, Ranking Member 
Heitkamp, distinguished Members of the Committee. Before I 
begin, I would just like to very quickly on behalf of the men 
and women of DHS offer our thoughts and prayers for Congressman 
Scalise and the others who were injured yesterday in the 
senseless attack in Virginia. We wish them well and hope that 
they have a speedy recovery.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stough appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    I am honored to appear before you today to discuss our 
Department's plan to achieve greater effectiveness, 
accountability, and efficiency in both the management of our 
business processes and the conduct of our mission to protect 
the homeland and secure our Nation's borders. We recognize both 
the imperative and the opportunity presented by the issuance of 
Executive Order 13871, and we are committed to improving 
Department management processes and front-line operations.
    In discussions with our Department's leaders, we developed 
a set of guiding principles that have helped us steer our 
effort. We recognize that success relies on the proper tone 
from the top, a well-defined governance structure to guide 
analysis and implementation, comprehensive and coordinated 
communication, transparency throughout the process, clear 
scope, and a structured framework for analysis. Most 
importantly, we recognize the critical requirement that we do 
no harm. We will in no way compromise our ability to protect 
the integrity of our Nation's borders, both physical and 
virtual, or to aid communities that have been struck by natural 
or manmade disasters. We have kept these principles in mind 
throughout this process, and we believe we have set a solid 
foundation that will help us succeed in this important 
initiative.
    Through a rigorous literature review that includes, of 
course, GAO and IG reports and recommendations, an online 
survey administered to Department personnel, and OMB's request 
for public comment, we have received and evaluated well over 
50,000 suggestions. Every idea has been considered. We have 
identified several important issues out of that review for 
further consideration, and we are now in the process of 
refining those issues and will present them to senior 
leadership this month.
    Through our analysis, we have identified potential 
improvements for single components, multiple components that 
share the same mission space, and for multiple departments and 
agencies as well, and we expect that some ideas will be 
implemented quickly, but others will require more in-depth 
study and analysis to weigh potential benefits against costs 
and return on investment.
    Our view spans both the near and long term as we work to 
improve the Department today while also shaping it for success 
in the coming years.
    I can assure you that senior leadership, including the 
Secretary, is committed to this effort, and we are excited for 
the opportunities that lie before us. Thank you again for 
inviting me to participate today, and I look forward to your 
questions.
    Senator Lankford. Thank you. I have not kept track of every 
one of our hearings, but I do believe for Senator Heitkamp and 
me, this is the first time all four witnesses finished at least 
a minute before their time was expired. [Laughter.]
    That could be a Congressional Record.
    Senator Heitkamp. And it could be foretelling in terms of 
their efficiency plans.
    Senator Lankford. And effectiveness.
    Senator Hassan. Yes, I was going to say, talk about 
efficiency, right?
    Senator Lankford. I want to ask one quick question of 
everybody, and then Senator Heitkamp and I are going to defer 
our questions to the end and move to some other Members. Then 
we will come back to our questions. But I do want to ask one 
clarifying comment of everyone.
    Do all four of you expect to make the June 30th deadline to 
be able to have that done? Ms. Herbst mentioned that 
specifically in her testimony, but for all four of you, just 
yes or no. Do you expect to make the June 30th deadline?
    Ms. Herbst. Yes.
    Mr. Lofthus. Yes.
    Mr. Bice. Yes.
    Mr. Stough. Yes.
    Senator Lankford. OK, great. Let me defer to Senator Hassan 
for initial questions.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Mr. Chairman, and thank 
you all for being here and for sharing your time and your 
experience and your perspective.
    I want to say at the outset how much I appreciate the 
effort that we are all talking about today. I am a former 
Governor, and it is the type of work we undertook on a regular 
basis in our State as well. That being said, it is also very 
important to me that the effort be focused on the mission and 
how best to accomplish the mission in a flexible and 
streamlined way, not necessarily with the goal, for instance, 
of personnel reductions. I think it depends a lot on what you 
are trying to accomplish. So I thank you for your work, and I 
look forward to the ongoing conversation.
    I wanted to start, Mr. Stough, with you, and I thank you 
very much for your and the Department's well wishes to the 
Congressman and all those who were injured yesterday. We 
appreciate that very much.
    Your written testimony says that Secretary Kelly continues 
to emphasize that, to protect the homeland, DHS cannot do more 
with less; therefore, the principal focus is on effectiveness 
first, followed by accountability and efficiency.
    With that said, the overall DHS budget for fiscal year 2018 
cuts critical programs to keep our homeland safe. These cuts 
include programs like the Visible Intermodal Prevention and 
Response (VIPR) teams at the Transportation Security 
Administration (TSA) and the grants that help cities and States 
prepare for and respond to complex terrorist attacks. These 
cuts come amid renewed aviation threats and a heightened State 
of alert of the potential for homegrown terrorism attacks in 
the United States.
    As a result, the budget request appears to be the 
embodiment of trying to do more with less. So given the 
Secretary's statements that you referenced, are you suggesting 
that OMB directed these cuts over DHS' objections?
    Mr. Stough. Senator, thank you for your question. I think 
we just have to recognize the reality of the fiscal constraints 
within which we live. And so that is really, part of what I 
said, this is an imperative, but this is also an opportunity 
for us that we do recognize that we have to make some tough 
choices because, the priorities for hardening the border, 
immigration enforcement, all of the other activities which we 
have to undertake, we have to balance risk across the entire 
enterprise.
    And so it is incumbent upon us as we look at each of the 
areas as we have gone through this for the issue areas to 
figure out if there are areas where we can have complementary 
efforts that will allow us to use our resources more 
effectively.
    Senator Hassan. I thank you for the answer. I will say to 
you, as I said to Secretary Kelly in the Homeland Security 
hearings we have had, the cuts to our local and State efforts 
to help with airport security in the soft areas in particular 
are hugely concerning, and they are not something that States 
or cities are in a position to replace. So I think if the 
American people were to understand the impact of these cuts, we 
might be having a different discussion, and I would look 
forward to continuing that with you.
    Mr. Lofthus, I wanted to touch base with you as well. You 
are Assistant Attorney General for Administration and the CFO 
for the Department, which gives you a view of the whole 
Department. Is that correct?
    Mr. Lofthus. Yes.
    Senator Hassan. So I would like to focus on one of the 
components you help oversee, the Federal Bureau of 
Investigation (FBI). In the Department's current organization, 
what structural safeguards are in place to ensure that the FBI 
can conduct its critical investigative work free from political 
interference?
    Mr. Lofthus. The FBI is a component of the Department of 
Justice. The Department of Justice is an organization that has 
a very decentralized management structure. The Director of the 
FBI exercises day-to-day management control over the FBI and 
its investigations, and there is a very structured process when 
they talk to the Department of Justice and talk to the Deputy 
Attorney General's office, and those controls have been in 
place for a long time and continue to be in place.
    Senator Hassan. Well, thank you for that answer. I think 
you probably know that there have been a lot of recent concerns 
raised about whether those structures have been sufficient in 
protecting the FBI from attempts at least to interfere. So I 
know that your process is not yet complete, but what changes to 
the Department's organization have been discussed or submitted 
that might impact the FBI's independence?
    Mr. Lofthus. Right now, our ideas are due from our 
components on June 16, so we do not have those ideas yet. When 
we get the ideas, our plan is to inventory, evaluate, and 
prioritize all the ideas we receive. That is the way we are 
going to go about it. So we will see what ideas come in. I 
expect ideas to come from the FBI itself. I do not anticipate 
changes that will impact the FBI's independence.
    Senator Hassan. Yes.
    Mr. Lofthus. We look forward to their ideas. I think they 
are going to have some good ideas. It is a talented 
organization, and as I say, we are going to inventory, 
evaluate, and prioritize the ideas and discuss them with 
management. And it will be an open process, and I look forward 
to seeing what the FBI has to say.
    Senator Hassan. Well, thank you. And I would just encourage 
you all to think about the issue of whether we need more 
structures in place to protect the FBI and its leadership from 
political interference. It is critically important to justice 
in our country.
    Thank you.
    Senator Lankford. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Chairman Lankford and Ranking 
Member Heitkamp. Thank you for allowing me to be here. I am not 
a regular member of the Subcommittee, so it is a great 
opportunity to come here and join you for this very important 
discussion. I appreciate you holding this hearing and for 
giving me an opportunity first to make a statement and then ask 
a couple questions.
    First, the statement that I really wanted to make regards 
the hiring freeze just generally, and I was concerned when I 
learned that President Trump had instituted a Federal hiring 
freeze because research has shown that hiring freezes increase 
rather than decrease waste in Federal Government. And after 
looking at the hiring freeze that took place during both the 
Carter and Reagan Administrations, the GAO found that hiring 
freezes can, and I quote, ``increase the cost of government 
operations by producing imbalances between clerical staff and 
professionals, impeding recruiting efforts, and wasting 
recruiting resources. This can result in higher costs for 
accomplishing work, backlogs in both clerical and professional 
duties, reduced quality of work, reduced mission and program 
performance, and decreased morale.''
    So I was certainly troubled to hear the President was 
seeking to do yet another hiring freeze to reduce the size of 
the Federal workforce, and that is why I asked the GAO to 
examine the implementation of the freeze as well as the 
guidance given by the OMB and OPM to Federal agencies. And I 
was pleased to have Senator Heitkamp join me in that request.
    So not only is the GAO going to look at whether the freeze 
saved money; it is also going to look at the April 12 memo to 
determine if the guidance given by the OMB is comprehensive and 
consistent with leading best practices. GAO is also going to 
examine the potential costs and benefits of the proposed 
reforms and whether there is sufficient, reliable data 
available to support a business case or a cost-benefit 
analysis.
    I am the Ranking Member on the Subcommittee of Federal 
Spending Oversight and Emergency Management, and I am committed 
to making government as efficient as possible. However, I am 
also interested in accomplishing this in a cost-effective 
manner that does not unduly harm agencies' functioning 
abilities. And I hope that through this GAO review we can find 
the best way to improve our operations and maintain a Federal 
Government that is accountable to the American taxpayers. So I 
appreciate you being here today and holding this hearing on 
this issue.
    I am also very concerned about funding for the 2020 Census. 
This is, as all of you know, a constitutionally mandated survey 
used by businesses and nonprofit organizations, researchers, 
all levels of government. Census data is also used to 
distribute more than $450 billion per year in Federal funds to 
States and localities. And I know the Bureau is in the process 
now of implementing a number of reforms to reduce costs and 
improve results, including IT systems to support online 
responses and non-response follow-up technology for their 
critical field work. And while these reforms require increased 
funding on the front end to support design, testing, and other 
preliminary work, they are also projected to save more than $5 
billion.
    Ms. Herbst, I understand that certain tests slated for this 
year have been canceled due to the uncertainty of the fiscal 
year 2017 funding and that 2018 is absolutely critical to 
conducting the end-to-end readiness test in order to accomplish 
these very important goals that I have outlined.
    So my question is: How has the OMB's memo affected the 
planning for the 2020 Census?
    Ms. Herbst. The decennial Census is the single largest 
individual undertaking that the Department has, and it receives 
quite a bit of oversight, as you might imagine, at the 
Department level.
    As Secretary Ross has come in as the new head of our 
Department, he has made it very clear repeatedly, both within 
the Department and publicly, that our number one priority for 
the decennial Census is an accurate, complete count of people 
where they live. We are committed to achieving that priority as 
efficiently as possible, but the priority is an accurate, 
complete count.
    The Census Bureau is in the process of updating its life 
cycle cost estimate to incorporate the latest information 
available from the testing that has been done and program 
decisions that have been made.
    Independently, the Secretary has directed staff, members of 
his team, including myself, to conduct a rigorous deep dive 
into the Bureau's cost estimates and these programs decisions 
to come up with an independent cost estimate based on the 
decennial design, and we anticipate delivering that updated 
life cycle cost later this summer.
    In the President's budget for fiscal year 2018, it does 
provide for conducting the fiscal year 2018 end-to-end test, 
and that planning continues.
    Senator Peters. All right. Thank you so much. I appreciate 
it.
    Ms. Herbst. Thank you.
    Senator Lankford. Senator Peters, I would give you a little 
extra time because you did have the initial statement we had 
talked about before. If you need to ask an additional question, 
I would give you some additional time. Do you need additional 
time?
    Senator Peters. No, I think we are fine. Thank you.
    Senator Lankford. All right. Senator Heitkamp.
    Senator Heitkamp. Thank you so much, Mr. Chairman.
    I am going to repeat a line from my opening statement. A 
third of the Federal workforce will be eligible to retire in 
2019. So the morale of the Federal workforce, the vision that 
you exhibit in terms of your agencies, is going to be critical 
to maintaining the historic knowledge that goes with a third of 
the workforce. We cannot overstate the challenge of what would 
happen tomorrow if every person eligible to retire in the 
Federal service walked out the door.
    And so this exercise has to be done not solely as an 
exercise of efficiency; it has to be done as an exercise in 
reaffirmation of the mission and the goals, because when people 
feel the--or know the mission, know the goals, know how 
critical they are to the public because, as we all know, we may 
think they serve a President. We may think our staff serves us. 
We may look at this and say it is all about who is at the top, 
who is the Secretary, who is the President, who is the Senator. 
At the end of the line, most really good quality Federal 
employees that I know--know who the boss is, and that is the 
taxpayers of this country.
    I hope in your analysis what you are thinking about is how 
you reaffirm how your mission will be established and how your 
mission will be advanced in light of these efficiencies, 
because if you demoralize, if you devalue your workforce, they 
will vote with their feet, because they can go and take a part-
time job doing something else and take their Federal 
retirement. And I think that is a very precarious and dangerous 
situation that we are in if we really believe that these 
positions are absolutely essential to serving the public.
    So just with that, I put that--as you are considering your 
plans and as you are putting these together, I just want to put 
the overlay. I want you to get a list of all the employees in 
your offices who could walk out the door tomorrow, and then 
think about how you would do the work and meet the mission of 
your agencies.
    So I am particularly concerned, Mr. Bice, over the cuts to 
agriculture, of course, discouraged, and where I have been a 
strong supporter of Secretary Perdue, and his vision, 
especially as it relates to trade, so I am not criticizing the 
Under Secretary for Trade, but I am discouraged that we cannot 
maintain our commitment at the Under Secretary level to rural 
development.
    You will take a look at all of the poverty ratings, all of 
the challenges. When we think about poverty and we think about 
blight and we think about the challenges of America, we 
frequently go to that urban city; we go to the middle. We know, 
those of us who represent and think about rural America every 
day know that the highest rates of poverty and the biggest 
challenges we have are in rural America. It is not in urban 
America. And so I hope that we can have a robust analysis of 
the role that USDA plays not only in assisting farmers on the 
farm program, but also making sure that that rural development 
role does not get left behind.
    And so, Mr. Bice, I think when you--foundationally--and I 
will do this very quickly so our colleague from California can 
get her questions in. Secretary Perdue affirmed to all of the 
employees that he now manages and serves, if you believe in 
servant leadership, that he serves that there would not be cuts 
to the workforce at USDA when looking at a 21-percent cut to 
that agency. Tell me how you are going to do that and not cut 
employees.
    Mr. Bice. Well, thank you for the question. So I think what 
we have talked about with the Secretary and with the people 
around the Secretary is to not make the discussions we are 
having on reform about cutting offices or people. It is more 
about how are we serving the customer. Are we serving them in 
the right way? Are we in the right locations? Are we meeting 
the needs out there?
    Most of our discussions have been about how can we make 
sure that the customers are served in a better way, and I 
include employees in that equation. The Secretary has talked 
about, unfortunately, you can go into some county offices, and 
FSA will be on one side of the building, or maybe in a 
different building than our Natural Resources Conservation 
Service (NRCS) folks, and our FSA folks, they do not talk as 
well as they could. Their systems do not communicate as well as 
they should. So the burden we are placing on the farmers, it is 
not just about how far they are driving, but it is also once 
they get in the office, we are making them go to multiple 
places to fill out multiple applications for similar programs. 
So the discussions we have had have been around how do we serve 
them better, not necessarily how we are going to reduce our 
workforce. So that is one of our focuses.
    Senator Heitkamp. But it is hard for me to imagine those 
kinds of efficiencies would result in a 21-percent reduction in 
budget. And, I do not think that is going to happen. I think 
Congress is not going to authorize a 21-percent--I would like 
to see advocacy at USDA talking about the money that was saved 
in the last farm bill and that we already gave in 
sequestration. We have been one of the leaders in agriculture 
in meeting budget reductions, and so we are--I fail to see how 
we are going to get to 21 percent and still do what I know 
needs to be done.
    And I will tell you this: You take people out of NRCS in my 
State; it just is going to delay and frustrate farmers who want 
to tile, who want to do the kind of work that they need to get 
permission from NRCS for. And so one thing that we learned 
during the Bakken challenges and with this huge increase, when 
we really saw a lot of Federal employees leaving and the 
inability to recruit a new workforce, the business of North 
Dakota fails--or does not fail, but it definitely suffers, 
whether it is getting a Bureau of Land Management (BLM) permit 
or whether it is getting information from USDA. And so we need 
to tell that story more often, and you need to tell that story 
more often.
    Thank you, Mr. Bice. I will turn it over.
    Senator Lankford. That is all right. And just a quick 
follow-up on that as well. FSA, I think we talked about it 
before. It is a consistent frustration just on process. I am 
sure it is one of the areas you are looking at, and I will not 
ask for the conclusion at this point, but it is one of the 
things I have mentioned to Secretary Perdue, and that is, if 
you have a disaster in an urban area, the Federal Emergency 
Management Agency (FEMA) comes out and responds to that 
typically within 30 days. If you have a disaster in a rural 
area, FSA, it may take a year, year and a half before there is 
disaster relief. And if it is a true disaster, 18 months later, 
disaster relief is not really disaster relief. That is a check 
after the fact.
    So FEMA has been able to work out the process in the urban 
areas, but FSA is still working out how to do that response in 
the rural areas. And it is one of the many areas, as you 
mentioned before, trying to be able to work the coordination, 
the paperwork, and how to be able to do the timing on that.
    Let me just go through several things here, and then I am 
going to go to Senator Harris in just a moment.
    Ms. Herbst, you made the comment ``lots of ideas from the 
public.'' In fact, Mr. Lofthus, you also, I think, made the 
specific comment about public comments as well. Can you give us 
an idea? The OMB hoped to be able to put this out and say if 
you have comments, put them here. The question we have on the 
dais is: Are those comments really coming in? How many comments 
are you getting from the public of what can be done better to 
be able to serve?
    Ms. Herbst. Thank you. Indeed, the web portal worked. I 
will talk to Commerce. I can give you a sense overall that 
110,000 comments were sent out to the Bureaus or to the 
Agencies. That does not mean they were unique because many of 
the comments had multiple Agencies in them, and OMB, if it was 
a multiple-agency comment, they sent it to every Agency that 
was included in the comment. For Commerce, we have gotten over 
5,000, again, including ones that had multiple Agencies in it.
    Because we are sometimes known as the ``data agency,'' we 
are able to apply data analytical tools at our disposal, and 
what we are doing is de-duplicating comments that are, repeated 
and getting down to a manageable number that is then being 
evaluated in my office first for whether it is a specific 
bureau that needs to look at it and respond or whether it is a 
more general department-wide comment.
    So it has worked. OMB has made the comments available, and 
they expect us to follow up on all of them. They have made that 
expectation clear.
    Senator Lankford. Agree or disagree with anyone else on 
that as far as the comments coming in from the public have been 
helpful, had enough? Mr. Lofthus.
    Mr. Lofthus. We have gotten over 6,700 comments from the 
public, and as my colleague from Commerce described, we are 
going through them. And there are a lot of duplicates, frankly, 
but we are going through them, and we are going to pick out the 
ones that we see have applicability for Justice, and it is 
going to go into our large inventory that we start to evaluate 
after----
    Senator Lankford. Do you have a system to be able to go 
through and evaluate those ideas? While every idea when you are 
brainstorming is a good idea, not every idea actually works. I 
get that. So what is your system that you have created to be 
able to go through these 6,700 ideas and say this is a great 
idea, we need to implement this?
    Mr. Lofthus. That is an excellent question and also ties to 
something that Senator Heitkamp mentioned a moment ago. If I 
can just talk to you about how we intend to evaluate all these 
ideas, not only the 6,700 from the public, the several hundred 
from our employees, and all the ideas we are going to get from 
the Department of Justice organizations, we have a few guiding 
principles.
    First, does it have a benefit to DOJ program priorities, or 
is it connected to our mission? That is very important to us. 
It needs to be connected to what we do about violent crime, 
national security, enforcing Federal laws. Does it solve a 
problem? That is one of the standards. We want to look at does 
this idea solve a problem for us. Does it improve service to 
the public? Does it make DOJ more effective? Does it save 
money?
    All of those things we are going to use to evaluate the 
ideas we get, and particularly the employee ideas we are 
getting. I have only been able to scan a few because officially 
we are not inventorying these things until Monday to start to 
go through them. But I have been very impressed with the 
quality of the ideas we are getting from across the Justice 
Department. I think it was a great approach to go out and get 
ideas from our employees.
    Senator Lankford. OK. Other comments from the public or 
from your employees, how is it working?
    Mr. Bice. In terms of the public comments, when we 
announced the reorganization on May 11, we published a notice 
in the Federal Register, and about a quarter of those comments 
coming in were about rural development and expressed some 
concern about rural development. But the majority of the 
comments were very supportive of the attempts to improve 
service and to look at where the lifeblood of American 
agriculture would be, which is selling our goods overseas as 
well as domestically.
    So, generally, it has been a very positive feedback that we 
have gotten. The Secretary has also had multiple hearings and 
has heard from members both in writing and also verbally about 
some of the concerns. So we are going to take all that in as we 
move forward, and, again, our focus is about what is best for 
our customers, not necessarily in terms of reducing offices or 
reducing our employees. It is about trying to make sure we are 
serving our customers better.
    Senator Lankford. I am pleased to be able to hear that. By 
the way, if there is any comment I hear from our farmers in 
Oklahoma more than weather, it is the markets in Asia and 
trying to determine what happens in international trade. So if 
you are going to rural America right now, you better be brushed 
up on international trade policy, because they are extremely 
aware of that. So I am pleased to be able to hear some of those 
comments as well as coming directly to you.
    Mr. Stough, do you want to mention anything on that?
    Mr. Stough. Yes, sir, just very quickly. We solicited 
comments from the front-line operators and the folks in DHS, 
and we got approximately 2,400 comments from that through--we 
put a website, a portal up for them to come in, plus they also 
used email, and from that we started evaluating--this was a 
while back. We have a team that is doing this on a daily basis, 
and we were able to distill out of that about 45 different 
issues for consideration, the ones that we think they are the 
big candidates to tackle as far as, how do we align 
investigations, some of the things like that that we need to 
look at.
    And then on top of that, we got about 50,000 comments from 
the public. Now, many of those, again, were comments that went 
to everybody, but we got a tremendous amount for us. And what 
we wanted to do was we had the 40--we figured out roughly the 
issues that we know we think we probably need to go after, and 
so what we wanted to do was see how do these comments align. We 
have a rigorous evaluation process that looks at feasibility, 
looks at some other things. But then what we wanted to do is we 
tried to take a look at each one of the individual public 
comments coming in and see if they fit within one of those or 
if there is an outlier someplace we probably need to explore 
differently. But I think going through that right now we feel 
very good about what we are seeing. We have had a lot of 
thoughtful comments from both the public and from the folks at 
DHS.
    Senator Lankford. Great. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Mr. Chairman.
    Mr. Stough, during his nomination hearing on January 10, 
Secretary Kelly committed to doing a top-to-bottom assessment 
of DHS. When he appeared before the Committee again on April 5, 
however, he testified that it has not yet been done.
    Is your office helping Secretary Kelly to perform this 
assessment? And if so, when do you expect it to be complete?
    Mr. Stough. Thank you for your question. I am not sure if 
this actually falls into the top-to-bottom assessment, although 
that is exactly what we are doing as we go through this 
process. When we started the process, we met with the Deputy 
Secretary who gave us--she has a kickoff meeting for each of 
the Executive Orders that have been rolled out or have been 
signed in order both to help the folks that are going to be 
implementing it or going through it to understand each other 
and what each other's role is, but also to set expectations. 
And she told us for this, as I think I said in my written 
statement, that she wanted a top-down and a bottom-up approach.
    And so we have the opportunity through this to solicit, 
from the employees that are out there that are doing the 
mission every day, what are the things they think we should be 
looking at, and then we also have what leadership came in and 
said from our perspective here is what we are seeing as well.
    So this really is the work that is going to be going on 
from the time that we come up with the issues that we think we 
need to be going after is really going to constitute a 
significant amount of what you would call, the top-to-bottom 
assessment.
    I would argue that probably like anything else, there is a 
pretty good distribution of this, so we will pick the most 
critical items first that will provide the most value, and then 
I think we see what is left over and where we need to go next.
    Senator Harris. Approximately how many employees of the 
Department would receive their questionnaires, I am assuming?
    Mr. Stough. It was made available to everybody. The Deputy 
Secretary put out a message that said, ``We welcome your 
input.'' We had a website portal that they could go to, and it 
was just a form that asked what the idea is and a couple of 
other things. They had room to make their comments. But we also 
offered--because you never know as far as having access to the 
website, we also offered email as well, so we got them both.
    Again, we got about 2,400. Everybody knew about it, or at 
least they should have. It was put out to everybody. And we got 
about 2,400 comments, and many positive from the folks in the 
field saying, ``Thank you for doing this. It is great to be 
able to have a voice in this process.''
    Senator Harris. Are you prompting them in any way with any 
questions so you can elicit certain information from them? Or 
are you just leaving it open for them to offer information as 
they----
    Mr. Stough. I am sorry, but at my age, I cannot remember 
what I had for breakfast, but I do not remember exactly the 
number. But, yes, in fact, we did have a way to structure it in 
there so that, why is this important and how will it affect 
certain prompts.
    Senator Harris. Great. And U.S. Customs and Border 
Protection (CBP) is making plans to loosen the current 
polygraph standard for new agents. Congress required the 
polygraph for new hires following widespread cases of 
corruption within CBP. What risk assessment has been done 
within DHS to ensure changes do not undermine workforce 
integrity? And will you commit to providing an assessment to 
us?
    Mr. Stough. I am sorry, that is within CBP itself, so I am 
not sure. But I certainly will be happy to go back and ask that 
question and get back to you and provide a response.
    Senator Harris. And we have had testimony in our Committee 
that the Department has, for an agency of its size, a 
particularly high amount of--I do not know if you would say 
``dissatisfaction,'' but ``dysfunction'' is a word that has 
been used to describe it. What do you believe are some of the 
steps that we can take and that you can take to improve that 
condition and that status within the Department?
    Mr. Stough. Well, we really think this is the first step. I 
mean, that is why we are excited about this effort, because we 
are getting--and, obviously, we are having to assess and 
distill and roll through it now. But we got plenty of frank 
comments from folks out in the field that said, here are areas 
that we think you need to take a look at, and everything--and, 
of course, that covered the range of structure and process and 
policy. And so it has given us a pretty good vector on the 
areas we need to go after to improve operations.
    Senator Harris. The President has directed DHS to hire an 
additional 10,000 U.S. Immigration and Customs Enforcement 
(ICE) agents and 5,000 Border Patrol agents. What workforce 
planning and modeling was used to support that recommendation? 
And can you provide that to the Committee?
    Mr. Stough. Again, I will have to go back and ask because I 
was not in that space, but I will take that for action. We will 
go back and provide a response.
    Senator Harris. OK. I appreciate that.
    And then you will at some point--and then if you can tell 
me when--give us an idea of what kinds of responses you are 
getting from the field, from the troops, as they are, in the 
Department.
    Mr. Stough. Yes, ma'am.
    Senator Harris. I would be very interested in hearing 
those.
    Mr. Stough. The first step, of course, is we will provide 
our response to OMB at the end of June. And then we will 
develop the follow-on, the Agency Reform Plan, and we will have 
the component Reform Plans rolled into that. And then at some 
point we should be able to point to here is where the ideas 
came from, here is how they were originated.
    Senator Harris. And will that feedback be available to the 
public?
    Mr. Stough. I will have to ask. I am not sure.
    Senator Harris. OK. My request would be that it would be 
available to the public.
    Thank you. Nothing else.
    Senator Lankford. Can I ask just a clarification on that? 
Obviously, I go back to not every idea is a good idea. Some 
ideas are just ideas on it. The transparency I am always a big 
advocate for on it. But are there names or anything else that 
are attached to this information? Because I want people to be 
able to put in ideas and not necessarily----
    Senator Harris. I agree.
    Senator Lankford [continuing]. Be exposed on that.
    Senator Harris. I agree.
    Mr. Stough. There are no names attached.
    Senator Lankford. OK, great. Well, I would say this as 
well, and I was just talking to Senator Heitkamp about this. 
Some of my most beneficial times in agencies are when I have 
had a polite meeting with leadership of the agency and then 
taken an hour to go cubicle to cubicle to be able to visit with 
the folks that are working in the task, because I get very 
practical ideas.
    I asked earlier about ideas from the public. You all are 
also all getting ideas from the team members, the folks that 
are career, that have been there a very long time. When I talk 
to career folks, I have had comments, for instance, people say 
to me--when I would say to them, ``Well, tell me what you do,'' 
and they have smiled at me and said, ``I do something that 
should not be done.'' It always has caught me off guard. And 
they have said, ``Do not get me wrong. I love my job, but we 
should not do this at all.''
    How are we getting that feedback? And Senator Heitkamp was 
trying to run some numbers here on it as far as the percentage 
of employees that have responded back to you. What were some of 
the----
    Senator Heitkamp. Mr. Chairman, you have 60,000 employees 
at U.S. Customs and Border Protection--correct?--and about 
60,000 at TSA. But yet we are below, way below just even a 
couple percent in terms of responses. And so, the numbers look 
large, but they are not large in comparison.
    Senator Lankford. Percentage.
    Senator Heitkamp. As a percentage of the overall workforce. 
And we all have an opportunity, because we fly a lot, to see 
the dissatisfaction from TSA in particular. I frequently ask 
them, ``How is it going?'' And they just roll their eyes. And, 
I understand that it is a difficult job, and frequently you are 
dealing with a very crabby traveling public. But there does not 
seem to be a sense of cohesion when I go through those--and I 
make it a point, as does Senator Carper, who for years, will 
shake the hand of every person. I am usually too much in a 
hurry to do that. But we have a chance to meet a lot of your 
employees in Border Protection, and I think if you ask them, I 
do not think they feel they get listened to.
    And so one of the concerns that I have is this may seem 
like a big number, but I think some of them have just thrown up 
their hands and said, ``It will never change anyway.'' And how 
do we combat that? ``Here we go again, another attempt to try 
and make us happy. Nothing ever changes, so we are not going to 
participate.''
    Senator Lankford. So let me add one thing, because I want 
to broaden this out to everybody, then have you go first on 
this, Mr. Stough. What is being done proactively to make sure 
we are getting input from as many people as possible and that 
they know they are being heard? Back to the comment before, 
bottom-up, because those folks know what is going on and know 
what can be more efficient and what is working and what is not 
working. Mr. Stough.
    Mr. Stough. So what I do not know and, obviously, what we 
cannot--because there are not names attached to it--is out of 
the 50,000 public comments, how many of those came in from our 
employees? We do not know. We gave them an opportunity 
separately to have the portal, but we do not know if the others 
came from there. But you are right. We would obviously love to 
have as many ideas from the public as possible.
    The Deputy Secretary has embarked on a listening tour, and 
that listening tour is not just--it is, of course, to the 
administrative offices and buildings, but it is also out to the 
front lines. She is trying to get to as many different 
locations as possible, and she is committed to soliciting ideas 
there and bringing those back.
    And it is interesting. We did have comments that came back 
and said sort of the same thing: ``I love my job. I am just not 
sure this is the right job we should be doing.'' It does not 
mean that we want to eliminate that position. It means we need 
to make sure that we are actually using our resources to make 
sure that we are conducting the mission as effectively as 
possible. So I certainly acknowledge that point.
    Senator Lankford. Great. Mr. Bice.
    Mr. Bice. So I would answer that partly by saying that when 
we did our May 11th reorganization, the Secretary I think was 
very effective in sending out an email video message to every 
employee asking them to either make comments through the 
Federal Register process or make comments through the OMB 
website. And I think we have gotten that kind of response from 
our people that they are paying attention and that they are 
passionate about it.
    The Secretary told a story that when he made his 
announcement in Cincinnati on May 11, there was a rural 
development employee who drove--who had no connection to the 
announcement, but drove from her duty station all the way out 
to see him and afterwards thanked him for making rural 
development a priority.
    So that is the kind of engagement our employees have, and I 
think that we are trying to encourage that through every medium 
that we can.
    You had mentioned that there is a draft bill that you 
dropped in terms of trying to get public comment. We actually 
struggled with that when we were looking at our May 11th 
announcement. Do we need to get a paperwork burden collection 
package ready to just ask the public are we doing what we 
should be doing the right way? And there was not a very clear 
answer to that. So we ended up going through what potentially 
is not the best way to reach the public or our employees, the 
Federal Register process and sort of the website process.
    So, I mean, that is one of the things that concerned me as 
a lifer at the Department of Agriculture when we looked at how 
can we reach out to our customers, and the answer was we need 
to go through this paperwork process.
    Senator Lankford. Yes, and that is something Senator 
McCaskill and I are working on, trying to get fixed. Of the 4 
million Oklahomans that I represent, I think 8 of them read the 
Federal Register. So that is not going to be the most efficient 
way to be able to get the input of Oklahomans. That may be 
different in North Dakota. I assume everyone wakes up and reads 
it there. But in Oklahoma, not as much. Mr. Lofthus.
    Mr. Lofthus. Thank you, Mr. Chairman. We do want to reach 
as many people as possible, as many of our employees as 
possible. I mentioned that I had sent an email communication 
directly to all 115,000-plus Department of Justice employees 
asking for their ideas to be sent directly to us. They do not 
have to go through any of their management. They can send them 
directly to us. I think that is where some of the best ideas 
come from, frankly.
    We are using our 40 distinct components in the Department 
of Justice. When I say ``components,'' think of bureaus and 
other offices, huge ones like the FBI and the Bureau of 
Prisons, smaller ones, some offices that may have, frankly, 20 
people in them, and everything in between. But each of those 40 
components of the Department of Justice is also working with 
the management and staff in those components to get ideas at 
every level. We have been pretty--what is the word? We have 
emphasized very distinctly at the Department that the ideas can 
come from management, they can come from leadership, they can 
come from every employee in a component. We are not trying to 
only engage a segment of the workforce. We want everybody 
involved.
    One of the things I have thought of sitting here at the 
table this morning is to go back out to our 115,000 employees 
and thank them for the ideas we have already received, because 
I owe them a thank you for the great ideas we are seeing. I 
welcome more ideas. We are getting ideas through other means as 
well. We have had an Attorney General SAVE Council for some 
number of years, and we get ideas through a SAVE Council 
suggestion box. So we are taking ideas from any source we can 
get, and I think that is the way to do it.
    Senator Lankford. OK. Ms. Herbst.
    Ms. Herbst. So a couple of things.
    First, on the approach to our employees, back to we have 
this Department Management Council, and we have had experience 
over the last several years with asking employees at a 
Department level, sending something out broadly, versus having 
the operating units themselves send things out. And we have 
found, at least in our experience, we get a richer dialogue 
going if the request comes from closer to the employees.
    Senator Heitkamp. Yes.
    Ms. Herbst. So that is why we agreed as a group that we 
would solicit employee input through the actual operating 
units, number one.
    However, we did do something at a Department level that I 
want to mention. We have our Department-level Labor-Management 
Forum. This is a group of both managers and representatives, 
senior representatives from the major collective bargaining 
unions that are represented in our Department. And we have 
quarterly meetings. This has been, I think, a very successful 
effort in that we have worked together on policy ideas and 
actually rolled out certain policies together, like telework, 
like phased retirement.
    So when this came up, we immediately said this is an area 
where the Labor-Management Forum can, again, work together. We 
briefed them on the guidance, on what we plan to do, and we 
have agreed collectively that we will work together throughout 
the summer on the ideas that come in and get input and so 
forth.
    I think the other area that we have not talked about yet is 
IG recommendations, GAO recommendations. We track 
implementations on a quarterly basis at the Department level 
and work with the operating units on that. So we have asked the 
bureaus to go back specifically and look at any unimplemented 
recommendations to determine whether there are things there 
that we need to put forward as part of this.
    Senator Lankford. Great. Just a reminder, for those of us 
on the dais as well, I am going to close the hearing right at 
11. We have votes at 11 o'clock, so we have about 20 minutes of 
conversation. We are in the second round of questioning, so any 
Member can jump in at any point. Any of you on the panel can 
also jump in at any point. But let me just drop one more thing 
out there.
    Is everyone going through GAO and IG reports as a part of 
this review? Two of you have mentioned that. Are all four of 
you doing that? Everyone is nodding heads. I am taking that as 
a yes.
    Mr. Bice. Yes.
    Senator Lankford. OK. That is great.
    Mr. Stough. And we actually had GAO come in and talk to us 
and give us, some ideas about how we could actually approach 
this. We have been closely involved with them.
    Senator Lankford. Terrific.
    Senator Heitkamp. I want to get back to what Ms. Herbst 
said, which I think is absolutely critical and it is right. The 
closer a reform or a supervisor is to the employee, where they 
can see a direct response and, ``Wow, that worked, they 
actually listened, we changed, this got better,'' that is gold 
in personnel management. You can have all of--I mean, I think 
we have a workforce sometimes that gets incredibly cynical 
about top-down kind of initiatives. We are now in the second or 
third phase of this. I can go through every kind of management, 
kind of trend that there has been, from total quality 
management--I mean, we can all talk about those, right? We have 
all been through them. But if people do not see systemic or 
lasting change, they get cynical and they do not engage. They 
put their head down and go home saying, ``I love my job. I love 
the people I work with. I believe in the mission of USDA. I 
believe in the mission of Commerce. But, every day I go to 
work, and I do things that do not add value to that mission.''
    We have to have openness and less resistance at that mid-
level-manager level. And one of the things that we have been 
doing here in a bill that I introduced, which is on supervisory 
training, because a lot of times we take that guy who is the 
best lawyer, take someone who is the best field agent, 
biologist, and we make them a manager, and they know nothing 
about management of people.
    So how do you see, when you are looking at your systemic 
changes, how do you see supervisory training in all of that as 
a way to perpetuate and to continue the ongoing dialogue? And 
that is for anyone.
    Mr. Bice. Well, we have had plenty of conversations with 
our Human Capital Officer about how do we target it. That is 
the other issue there. I cannot agree more. I usually use the 
IG example. The best auditor ends up being the manager of the 
office, maybe not the best manager but the best auditor. But, 
we tend to just require things of our employees. OK, we are 
going to require 80 hours of training, go take it. Well, the 
issue is we need to find out who needs the 80 hours of training 
so that we target it to the actors that need it, whether they 
need support or they need to understand what their role is, 
they need, reform in their own----
    Senator Heitkamp. Do you have a mentoring program where you 
see really good managers who then can mentor new managers?
    Mr. Bice. Yes, we have set those up. We have those kind of 
upward mobility kind of programs where we have people who can 
informally mentor. We have a website that employees register 
themselves, and then we could have mentors register themselves, 
and you can match--sort of ``The Dating Game'' approach, I 
guess. So we do have that. We need to do a better job at that. 
Sometimes we are the victims of our own success, though, 
because at USDA we tend to get that new farm bill every 5 years 
and focus on delivering that farm bill, and by the time we are 
done delivering that football, we are getting ready to deliver 
the next farm bill. And you do not have that flexibility to 
sort of look and say, well, how are we operating? We are 
constantly building the pontoon bridge over the water, not the 
permanent bridge. So, what we really need to do is sometimes 
take a step back and make sure that we are building the right 
bridges to our employees.
    Senator Lankford. Can I just mention it is overly 
optimistic to say the new farm bill comes every 5 years? 
[Laughter.]
    Mr. Bice. I will say 5 to 6.
    Senator Lankford. Yes, or 7.
    Mr. Lofthus. I can chime in and just say that the OMB 
Memorandum 17-22 did require agencies to develop additional 
performance management training and supervisory training. At 
Justice, we have issued our initial guidance to fulfill the 
requirements of 17-22, because we do want to have our 
supervisors able and skilled to better manage their offices. It 
is better for the Department; it is better for the employees.
    But to go back again to one of the things the Senator 
mentioned at the outset of the hearing, there is an aging 
workforce in many of the Agencies. One of the things that we 
are really interested in at Justice is developing the next 
generation of leaders at the Department of Justice. We have a 
program called Leadership Excellence and Achievement Program 
(LEAP)--where we take more junior managers earlier in their 
career and put them into a very rigorous program where they can 
get access--``exposure'' is a better word--to the senior 
leadership of the Department. We put them in different jobs 
outside of their regular offices, and they have different 
assignments across the Department in a year, in a very rigorous 
year of management training. It is one of the most popular 
things we have ever done. So we are getting good results with 
things like that.
    Senator Lankford. Can I just ask a general question of all 
four of you, again, just quickly? All four of you, you are 
working through employee performance management training. Is 
that a part of the review? Yes?
    Mr. Bice. Yes.
    Senator Lankford. For all of four of you? OK. So let me ask 
this as well. Is a part of your review looking at regional 
placements? So, for instance, that task is either in D.C. or it 
is in a region. Is there a better place to put it? Should it be 
closer to real people outside of D.C., or should that be in a 
central office in D.C.? Are you evaluating where the task has 
occurred as a part of it? Are all four of you doing that?
    Mr. Lofthus. Yes.
    Mr. Bice. Yes.
    Mr. Stough. I will hesitantly say yes. It depends upon what 
the tasks are that we are looking at. I mean, some are driven 
by, again, border security, reinforcement, some of the other 
things. But, yes, it will certainly be part of the----
    Senator Lankford. Yes, I am just talking about--I am just 
trying to look at--because there are some things that are done 
here that do not necessarily need to be done in D.C.
    Mr. Stough. Yes, sir.
    Senator Lankford. One of the most expensive places to 
office in the country.
    Senator Heitkamp. Right.
    Senator Lankford. Some of those same tasks could be done in 
another place where the task exists, but it could be done more 
efficiently outside of D.C. than here. I think that is what I 
am asking.
    Mr. Lofthus. Yes.
    Ms. Herbst. Yes.
    Mr. Bice. Yes. In fact, USDA has been--one of our agencies, 
the Animal and Plant Health Inspection Service, they have 
actually moved their HR functions to Minnesota, and several of 
our food safety have their HR functions in Minnesota, and some 
other folks. So they have recognized that, and we have been 
working toward doing some of that with some of our 
administrative functions as well.
    Senator Lankford. OK. The same thing of all four of you as 
well. Do you anticipate that your organization will also hand 
to Congress in whatever form that is, whether it goes to OMB 
and OMB is sending it, but requests for statutory changes, if 
we are going to do restructuring, here is a barrier to us that 
we have bumped up again? In other words, we should do this, but 
we cannot do this based on statutory limitations, but we 
recommend this be reevaluated. Are all four of you making 
recommendations to OMB that OMB is bringing to us on that?
    Mr. Stough. Yes.
    Mr. Bice. I think that is part of the plan, yes.
    Senator Lankford. OK. All four, yes?
    Mr. Stough. Yes.
    Mr. Lofthus. Yes.
    Senator Lankford. Ms. Herbst.
    Ms. Herbst. Yes.
    Senator Lankford. OK.
    Senator Heitkamp. One of the things that we want to make 
sure is loud and clear, because I think when you go through 
this kind of review process, immediately people go into defense 
mode, that this is--behind the curtain is an implicit criticism 
of the work that is being done. I think it is really important 
that the message of this is: How can we be better managers of 
the message? How can we encourage employee input and then 
respond to that input in a meaningful way?
    So I want to make sure that when we are analyzing or when 
we are talking about a hearing like this, that this hearing is 
to try and offer opportunities for mainline Federal employees 
to have their voice amplified in terms of efficiencies. It is 
not intended in any way to be a criticism of the people who 
work for the Federal Government. I want to ask you, in your 
dialogue, in your discussion coming back, is it possible to 
make that point over and over again in the work that you are 
doing?
    Ms. Herbst. I will start, and I will say yes, and I am 
going to sound like a cheerleader for OMB, which these guys who 
know me know I am not usually. But they have been incredibly 
supportive in this effort, and I think the message at least 
that we have received over and over again is it is on us, 
because we know our missions, to propose things that are 
mission-specific and support the mission.
    There has been no across-the-board edict or anything like 
that, and, in addition, OMB and OPM have met with us multiple 
times to help answer questions on the guidance, to ask if they 
can do anything to help.
    So I think that spirit you are talking about is also 
flowing from OMB to the agencies.
    Senator Heitkamp. That is good to know.
    Senator Lankford. Can I ask about duplications? One of the 
things that I noticed in this recommendation, there was a 
request to look at duplication within the agencies. I have not 
seen a lot of duplication within some agencies. It is agency to 
agency. Excuse me. I get very emotional about duplication. 
[Laughter.]
    Excuse me. So my question is: How do you do that? Are you 
empowered to say we are doing something somebody else is?
    Ms. Herbst. So I will start, but I think other folks will 
chime in. Yes, and we started with the GAO annual duplication 
report, and there are programs in Commerce that have been 
mentioned through the years that are part of a larger cross-
government--and, yes, we are being encouraged to point that 
out, and then the expectation is throughout the summer, OMB 
will help facilitate those conversations between agencies where 
that has been identified.
    Senator Lankford. So OMB is the one that is doing that. You 
are not responsible for identifying duplication by somebody 
else?
    Ms. Herbst. Oh, no. We are.
    Senator Lankford. You are?
    Ms. Herbst. But then they are going to help facilitate the 
cross-agency conversations.
    Senator Lankford. So you have the responsibility to say, 
``We are doing something somebody else is doing,'' then 
throwing it to OMB and saying, ``We have to figure this out''?
    Ms. Herbst. Yes, and I would characterize it at least for 
us a little differently. We are looking at where there are 
multiple programs across the government that are aimed at an 
outcome where we are each doing a piece of it.
    Senator Lankford. OK.
    Ms. Herbst. And whether we can do better if we are better 
coordinated, better managed.
    Senator Lankford. OK. So it is more coordination than it is 
duplication at that point.
    Ms. Herbst. I think for us that is what we are looking at.
    Senator Lankford. OK. All right.
    Mr. Lofthus. We are looking at duplication inside Justice 
for certain. There is no question that I think we have ways of 
doing business that no one would do business that way if they 
started the place new today. It is simple things. We have many 
email systems, and why does an outfit need to run its own email 
today when a larger entity can provide the same service with 
greater reliability at lower cost? Those things to us are some 
easy victories we can get out of this. I say ``easy.'' There 
will be victories; they are not always easy to accomplish.
    Senator Lankford. Yes, ask DHS how easy it is to combine 
all your HR functions.
    Mr. Lofthus. Right. HR, very difficult to do. Even 
procurement and finance, all those things are harder than meets 
the eye. But when you have things like people running their own 
IT shops, when they are a very small organization, I would much 
rather that they procure those services, buy those services 
from an outfit that is really an expert at this.
    Senator Lankford. So let me throw a couple of things at you 
with that, not only IT but HR issues, Congressional liaisons, 
whether each is needed in each place, whether they are needed 
regionally as well as here, shared services, and finding a way 
to be able to do that. All of those things I assume are on the 
table. And nodding heads here, I am seeing everybody, that it 
is on the table.
    Mr. Lofthus. Yes.
    Senator Lankford. Even when you deal with--and this gets 
to--you want to talk complicated on it. You can begin to ask 
the question of Justice. The Bureau of Alcohol, Tobacco and 
Firearms (ATF) and the FBI and the DEA have to work very hard 
to make sure they stay in very tight lanes because they are so 
close together in so many areas. ATF has a spot that looks a 
lot like FBI responsibility or it looks a lot like DEA 
responsibility, and the question is always set out there as 
well. If you want to continue to dig and to be able to look, 
you are going to have to raise the issues at some point and 
say, ``Hey, do we really need both of these organizations when 
they are so close in responsibility?'' It is a thing DHS has 
had to struggle with, as so many legacy entities were put back 
into them as well.
    Something as dramatic as that, is that even allowed to be 
discussed in this process? Or is it really just, OK, that is 
the elephant in the room, we want to talk about process and 
email serves and such?
    Mr. Lofthus. We did not approach this with a sacred cow 
concept, meaning everything is on the table. Somebody can put a 
small idea on the table, a medium idea, or a grand idea. They 
are all welcome, and they are all on the table.
    Senator Lankford. Yes, some of those things may take 10 
years to unwind. Some of them may take 10 weeks. But everything 
is allowed?
    Mr. Lofthus. Any idea can come in. I think that is why at 
the end of this process, the big sweeping ideas probably for 
all of us, I think it is safe to say, are going to have to go 
through OMB and be presented by the Administration to Congress, 
because it is going to take some action here.
    Senator Lankford. And that is why I ask the question 
specifically. We assume it is coming at us, some set of ideas, 
but we want to tell you we expect those things.
    Senator Heitkamp. Right.
    Senator Lankford. We are not trying to keep the barrier to 
say you do your stuff, we will do ours. We know we have to 
cooperate together on some of this.
    Senator Heitkamp. Well, and to add to that, understand that 
this is not a one-off. This is not one thing. We are going to 
come back to you and say, ``Where are we at with this 
process?'' And as long as Senator Lankford and I are Chairman 
and Ranking Member of this Committee, we are going to do 
oversight on the plans that you present. And we are going to--
this is not, check a box for us. To us, this is absolutely 
critical in meeting a 21st Century Federal workforce and 
Federal Agencies fulfilling their missions.
    And so this is just our introductory, what are you doing 
right now? You will see us over and over and over again.
    Senator Lankford. Yes, and we will bring up some practical 
issues. I have talked about some of the things like ATF, FBI, 
DEA, and the overlap, and them having to work to develop lanes 
because they are so close, then you ask the question of why on 
that. It is the same thing every time I talk to a Secret 
Service agent. If I talk to an agent, they still feel like an 
appendage in the DHS machine, that there is DHS and then over 
here is Secret Service, and they are trying to figure out where 
they fit. And whether it is Homeland Security Investigations 
(HSI) versus Secret Service and all their roles and who has 
equipment and how this works, how they are integrated in the 
whole in retirement, in systems, in overtime. All those things 
I know DHS is still working. They are trying to figure out 
where do they fit in the organization. We have brought up 
before issues with Commerce and with Census, in particular, and 
it is just one of those questions that I have had to ask 
multiple times. On that year that the Census is done, I do my 
taxes, and then a few days later, I do my Census. Why I cannot 
do that at the same time? Why I cannot, when I electronically 
file my taxes, also electronically file my Census and getting 
all that stuff in and allowing those two entities to be able to 
cooperate together? That sure seems like we would click off 
about 200 million Americans that would do their Census that 
day, and then we can fill in the gaps on it. But for some 
reason, I raise that issue, and it is always like that is an 
interesting concept, do not know if that will work, and it goes 
away.
    These are all issues that I would assume others are raising 
as well. They were trying to figure out where does this go from 
here. And I know you are not running all the Census stuff on 
it, but that is just a practical issue to be able to say why 
and where. And if there is a statement, well, we have to all do 
it on the same day and be able to track the same thing, is 
there something we need to be able to fix? Because just that 
simple idea when I turn in my taxes, I also do my Census at the 
same time, it is just adding additional questions to the form 
that day, it seems like around a $4 billion idea to be able to 
save a lot of money back and forth with that. But somebody can 
tell me where we are wrong on it.
    Any additional comments?
    Senator Heitkamp. No. If we are winding down, I just want 
to make sure that the National Treasury Employees Union (NTEU) 
statement that we have provided is entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of the National Treasury Employees Union 
appears in the Appendix on page 54.
---------------------------------------------------------------------------
    Senator Lankford. Without objection.
    Senator Heitkamp. Thank you.
    Senator Lankford. One quick question just on Census, and 
that is just on the organization. Is Census being evaluated in 
the total of Commerce as far as in the organization how it 
fits? I assume you are also getting input from all of those 
folk straightforward, but it is one of those things that 
everyone cares a lot about every 10 years. But I know it is 
ongoing all the time. So is that a major part of the 
consideration for Commerce?
    Ms. Herbst. Yes. Every operating unit we are treating 
equally, and thank you for pointing out that Census does other 
things besides the decennial, and we have done a lot of work 
already on economic Census and surveys and the Bureau of 
Economic Analysis (BEA) and Census working more closely 
together, the idea of sharing administrative records that I 
know you have heard a lot about as well. But, yes, they are 
very much a part of this effort.
    Senator Lankford. That is great.
    Any other final comments from anyone? I want to make sure 
we are getting your input in here as well.
    [No response.]
    Any closing comments from you?
    Senator Heitkamp. No.
    Senator Lankford. OK. With that, we will then conclude 
today's hearing. I do want to thank all of you for coming, not 
only for your preparation, for the work that you are doing all 
of the time. We get to talk about it publicly, but you are 
privately working on these issues all of the time. We very much 
appreciate the work on that.
    The hearing record will remain open for 15 days until the 
close of business on June 30, which is also a special day to 
all of you as well, for the resubmission of any statements, any 
questions for the record and such.
    With that, the hearing is adjourned.
    [Whereupon, at 11 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                 <all>
</pre></body></html>
